NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



        AUDIT MEMORANDUM: EMPLOYEE
         FEDERAL TAX WITHHOLDINGS

               Report #OIG-05-11
               November 22, 2005




               William A. DeSarno
               Inspector General


                  Prepared by:


           Charles E. Funderburk, CPA
                 Senior Auditor
TO:          J. Leonard Skiles
             Executive Director

FROM:        William A. DeSarno
             Inspector General

DATE:        November 22, 2005

SUBJECT:     Employee Federal Tax Withholdings
             Report #OIG-05-11


The National Credit Union Administration Office of Inspector General (NCUA OIG)
performed a proactive review of NCUA employees’ compliance with personal federal
income tax obligations. The NCUA OIG initiated this engagement as a joint audit and
investigative engagement.

OBJECTIVE

The overall objective of this engagement was to identify any NCUA employees who may
be delinquent in paying federal income taxes. Our specific objective was to:
   • Identify NCUA employees who had $0 federal income tax withholdings

SCOPE AND METHODOLOGY

The scope of this engagement was to review and analyze employee federal tax
withholdings in 2004, as reported on employee Internal Revenue Service (IRS) W-2
forms.

The OIG obtained a listing of NCUA employee 2004 W-2s from the General Services
Administration National Payroll Center with the assistance of NCUA’s Deputy Chief
Financial Officer. We sorted the W-2 records by:
    • Ascending dollar amount of federal withholding taxes
    • Ascending dollar percentage of federal withholding taxes to gross wages

Since this was a limited scope review, this engagement was not performed in
accordance with Generally Accepted Government Auditing Standards.




                                          1
BACKGROUND

Tax abuse by federal employees and contractors has received recent congressional
attention. The United States Government Accountability Office (GAO) recently
performed an audit (report GAO-05-637) to determine the magnitude of unpaid taxes of
contractors at federal civilian agencies. GAO reported that records showed about
33,000 civilian agency contractors owed over $3 billion in unpaid federal taxes as of
September 30, 2004. Further, the IRS reported in October 2004, that 3.14 percent of
federal employees and retirees had not paid their federal tax on time. Federal
employees are expected to satisfy their just financial obligations. Failure to do so
violates the Standards of Ethical Conduct for Employees of the Executive Branch (5
C.F.R. 2635.101 (b) (12).

ANALYSIS

There were a total of 1,011 employee W-2 records for 2004.

We identified three employees who had $0 federal income tax withheld in 2004. The
employees had gross wages of $72,328, $26,480 and $3,206, respectively. All three of
the employees claimed to be exempt from federal income tax on their federal
withholding tax forms. In addition, we identified two employees who had an effective
federal tax withholding rate of 0%. These two employees had gross wages of $99,996
and $29,872, respectively. The former--with $99,996 in gross wages--claimed a
married tax status with 16 exemptions.

CONCLUSION

Overall, our review revealed relatively few employees with no federal withholding taxes.
We referred the nominal instances of questionable withholdings identified above to the
OIG Director of Investigations for investigative consideration.

Distribution:
       Board Chairman, JoAnn M. Johnson
       Board Member, Rodney E. Hood
       Board Member, Christiane Gigi Hyland
       Deputy Executive Director, Jane Walters
       Chief Financial Officer, Dennis Winans
       Director Office of Human Resources, Sherry Turpenoff




                                           2
